No. _____
INTHE

�uprcmc Oiourt of t.qc �nitco �htics
ARTURO BELTRAN,

Petitioner,
V.

CRAIG KOENIG, WARDEN,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

CUAUHTEMOC ORTEGA

Federal Public Defender
MARK R. DROZDOWSKI*
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
*Counsel of Record

QUESTION PRESENTED
During a colloquy on a plea agreement to a 24-year sentence, petitioner

said that he did not understand all of the rights and consequences of the plea
read to him by an interpreter. The trial court responded, “Good,” tore up

petitioner’s plea waiver form, instructed the prosecutor to call her first

witness, and declared that “All deals are off the table.” Petitioner was tried,

convicted, and sentenced to 130 years to life in state prison. Is petitioner’s
claim that the court’s abrupt and arbitrary rejection of his plea agreement
deprived him of due process cognizable in habeas, or does it “failQ to present

a constitutional issue cognizable for habeas review,” as the Ninth Circuit held
in denying relief?

1

PARTIES AND LIST OF PRIOR PROCEEDINGS
The parties to this proceeding are Petitioner Arturo Beltran and
Respondent Craig Koenig, Warden. The California Attorney General
represents Respondent.

On August 25, 2010, Beltran was convicted by jury in Los Angeles
County Superior Court in People v. Beltran, case no. KA088180, Judge Mike
Camacho, presiding, of sexual assault against his minor daughters. 2 clerk’s

transcript of trial (“CT”), docket 52, lodgment 16 at 248-296.1 On December
13, 2010, Judge Camacho sentenced Beltran to 130 years to life in state

prison. 2 CT 298. Judge Bruce F. Marrs made the pre-trial ruling that is the

subject of this petition. Petitioner’s Appendix filed concurrently herewith
(“Pet. App.”) 96.

The California Court of Appeal, per Justices Sandy R. Kriegler, Paul A.
Turner, and Orville A. Armstrong, affirmed the judgment on appeal in an

unpublished opinion filed on June 13, 2012 in People v. Beltran, case no.

B229725. Pet. App. 74-94. The California Supreme Court denied Beltran’s
petition for review on September 19, 2012 in case no. S204281. Pet. App. 73.

1 Unless otherwise noted, all references to “docket” are to the district
court docket in Beltran’s federal habeas corpus case.
ii

On March 7, 2013, Beltran timely filed a federal habeas corpus petition
in Arturo Beltran v. Matthew Cate, Secretary, California Department of
Corrections and Rehabilitation, C.D. Cal. case no. LACV 13-1624-JLS (LAL).

Docket 1. On August 22, 2017, United States Magistrate Judge Louise A. La
Mothe filed a report recommending that Beltran’s habeas petition be denied

and the action dismissed with prejudice. Pet. App. 48-72. On March 6, 2018,

United States District Judge Josephine L. Staton accepted the

recommendation and entered judgment against Beltran with prejudice. Pet.
App. 45-47.

On September 25, 2018, the Ninth Circuit granted a certificate of
appealability on the issue whether “appellant was deprived of due process
when the trial court refused to accept appellant’s plea, including whether this
claim is procedurally defaulted.” Pet. App. 43. On August 25, 2020, the

Ninth Circuit, per the Honorable Consuelo M. Callahan and Patrick J.

Bumatay, Circuit Judges, and Michael H. Watson, United States District
Judge for the Southern District of Ohio, sitting by designation, affirmed the
judgment in an unpublished memorandum decision in case no. 18-55528.

Pet. App. 39-42.

in

TABLE OF CONTENTS

PAGE
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

The Trial Court Rejects the Plea Agreement
Before the Preliminary Hearing

4

II.

Trial

9

III.

State Appeal

13

IV.

Federal Habeas

18

I.

REASONS FOR GRANTING THE WRIT

21

I.

AEDPA Standards

21

II.

The State Court Did Not Adjudicate the Merits of Beltran’s
Due Process Claim, and Therefore It Is Reviewed De Novo..

22

The Trial Court Violated Beltran’s Due Process Rights
by Arbitrarily Rejecting the Plea Agreement

22

IV.

Beltran Was Prejudiced by the Due Process Violation

29

V.

Beltran’s Claim Is Not Procedurally Defaulted

34

III.

CONCLUSION

37

INDEX TO APPENDIX

38

APPENDIX

39

iv

TABLE OF AUTHORITIES
PAGE(S)

FEDERAL CASES
Albright v. Oliver,
510 U.S. 266 (1994)

22

Bennett v. Mueller,
322 F.3d 573 (9th Cir. 2003)

34

Chapman v. California,
386 U.S. 18 (1967)....

32

Cone v. Bell,
556 U.S. 449 (2009)

18, 21

Cooks v. Spalding,
660 F.2d 738 (9th Cir. 1981)

25

Foucha v. Louisiana,
504 U.S. 71 (1992)

22

Frantz v. Hazey,
533 F.3d 724 (9th Cir. 2008) (en banc)

20, 21

Gray v. Netherland,
518 U.S. 152 (1996)

34

Henderson v. Morgan,
426 U.S. 637 (1976)

27

In re Morgan,
506 F.3d 705 (9th Cir. 2007)

28

Lafler v. Cooper,
566 U.S. 156 (2012)

.passim,

Marshall v. Jerrico, Inc.,
446 U.S. 238 (1980)...

23

Mathews v. Eldridge,
424 U.S. 319 (1976)

22
v

TABLE OF AUTHORITIES
PAGE(S)
Maxwell v. Roe,
628 F.3d 486 (9th Cir. 2010)

21

Missouri v. Frye,
566 U.S. 134 (2012)

passim

N.A.A.C.P. v. Alabama,
357 U.S. 449 (1958).

36

North Carolina v. Alford,
400 U.S. 25 (1970)

26

Panetti v. Quarterman,
551 U.S. 930 (2007).

. 21, 31

Reynolds v. Ellingsworth,
843 F.2d 712 (3rd Cir. 1988)

36

Rippo v. Baker,
137 S. Ct. 905 (2017) (per curiam)

23

Santobello v. New York,
404 U.S. 257 (1971)..

24

Scott v. Schriro,
567 F.3d 573 (9th Cir. 2009)

37

Sivak v. Hardison,
658 F.3d 898 (9th Cir. 2011)

36

United States v. Delegal,
678 F.2d 47 (7th Cir. 1982)

32

United States v. Maddox,
48 F.3d 555 (D.C. Cir. 1995)

27

United States v. Miller,
722 F.2d 562 (9th Cir. 1983)

25, 28

vi

TABLE OF AUTHORITIES
PAGE(S)
United States v. Moore,
916 F.2d 1131 (6th Cir. 1990)

24

Wilkinson v. Austin,
545 U.S. 209 (2005)

22

Williams v. Pennsylvania,
136 S. Ct. 1899 (2016).,

23

Wilson v. Sellers,
138 S. Ct. 1188 (2018)

21

Wolff v. McDonnell,
418 U.S. 539 (1974)

23

Woodford v. Garceau,
538 U.S. 202 (2003)

20

■

Woods v. Donald,
135 S. Ct. 1372 (2015) (per curiam)

22, 28, 33

State Cases
In re Alvernez,
830 P.2d 747 (Cal. 1992)

24

People v. Harris,
67 Cal.2d 866 (Cal. 1967)

15

People v. Pompa-Ortiz,
612 P.2d 941 (Cal. 1980)

13, 34

People v. Ramirez,
599 P.2d 622 (Cal. 1979)

23

People v. Segura,
188 P.3d 649 (Cal. 2008)

23, 24, 25

People v. Smith,
22 Cal. App. 3d 25 (1971)

24, 28
vii

TABLE OF AUTHORITIES
PAGE(S)
People v. Stanfill,
76 Cal. App. 4th 1137 (1999)

36

People v. Welch,
851 P.2d 802 (Cal. 1993)

36

People v. West,
477 P.2d 409 (Cal. 1970)

34

Federal Constitution and Statutes
28 U.S.C. § 1254(1)

1

28 U.S.C. § 1291

1

28 U.S.C. § 2241

1

28 U.S.C. § 2253

1
12

U.S. Const, amend. V

U.S. Const, amend. XIV

12, 14

State Statutes
Cal. Penal Code § 269

8, 12

Cal. Penal Code § 288

8, 11

Cal. Penal Code § 288.7

8, 11

Cal. Penal Code § 995

.passim

Cal. Penal Code § 996

15, 16

Cal. Penal Code § 667.61(b)

12

vm

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS

FOR THE NINTH CIRCUIT

Arturo Beltran petitions for a writ of certiorari to review the judgment
of the Ninth Circuit Court of Appeals affirming the judgment against him in

his habeas corpus action.

OPINIONS BELOW
The Ninth Circuit’s memorandum affirming the district court’s final
judgment is unreported. Pet. App. 39-42. The district court’s final judgment

and its order accepting the magistrate judge’s report and recommendation

and dismissing the habeas action against Beltran with prejudice are
unreported. Pet. App. 45-47.

The opinion by the California Court of Appeal affirming Beltran’s
judgment on direct appeal is unreported. Pet. App. 74-94. The order by the

California Supreme Court denying Beltran’s petition for review is
unreported. Pet. App. 73.

1

JURISDICTION
The Ninth Circuit’s judgment affirming the judgment against Beltran
was filed and entered on August 25, 2020. Pet. App. 39-42; Ninth Circuit

docket 46. The district court had jurisdiction under 28 U.S.C. §§ 2241 and

2254. The Ninth Circuit had jurisdiction pursuant to 28 U.S.C. §§ 1291,
2253, and 2254. This Court has jurisdiction under 28 U.S.C. § 1254(1). This
petition is timely under Supreme Court Rule 13.1 and the Court’s order of
March 19, 2020 extending the filing deadline for certiorari petitions by

another 60 days because of Covid-19.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Section 1 of the Fourteenth Amendment to the U.S. Constitution
“All persons born or naturalized in the United States, and subject to

the jurisdiction thereof, are citizens of the United States and of the State

wherein they reside. No State shall make or enforce any law which shall

abridge the privileges or immunities of citizens of the United States; nor shall

any State deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of

the laws.”

28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in

custody pursuant to the judgment of a State court shall not be granted with
2

respect to any claim that was adjudicated on the merits in State court

proceedings unless the adjudication of the claim

(1) resulted in a decision that was contrary to, or involved an

unreasonable application of clearly established Federal law, as determined by
the Supreme Court of the United States; or

(2) resulted in a decision that was based on an unreasonable

determination of the facts in light of the evidence presented in the State court
proceeding.”

28 U.S.C. § 2254(e)
“(1 ) In a proceeding instituted by an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court, a

determination of a factual issue made by a State court shall be presumed to
be correct. The applicant shall have the burden of rebutting the presumption
of correctness by clear and convincing evidence.

(4) If the applicant has failed to develop the factual basis of a claim in
State court proceedings, the court shall not hold an evidentiary hearing on
the claim unless the applicant shows that--

(A) the claim relies on-(i) a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court, that was

previously unavailable; or

3

I

(ii) a factual predicate that could not have been previously

discovered through the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish

by clear and convincing evidence that but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the

underlying offense.”

STATEMENT OF THE CASE
I.

The Trial Court Rejects the Plea Agreement Before the
Preliminary Hearing
In September 2009, Beltran was charged with five felony counts of

sexual assault against his minor daughters “D.B.” (or “D.”) and “G.B.” (or

“G.”). 2 CT 277. The charges “carrie[d] a potential life sentence.” Pet. App.
97.

On December 14, 2009, the date set for the preliminary hearing,
Beltran appeared before Judge Bruce F. Marrs in the Los Angeles County
Superior Court in Pomona. Pet. App. 96. Beltran’s lawyer, Brian Virag, had

substituted in for the public defender on November 2, 2009. Pet. App. 101102. A Spanish interpreter was present to assist Beltran. Pet. App. 96.

Defense counsel explained to the court (1) that at the last hearing, the
prosecutor made a plea offer of 20 years but had just taken that offer “off the

table,” was now offering 24 years, and said “that your client has five or ten

4

5

minutes to decide”; (2) that he had discussed the 24-year offer with Beltran;

and (3) that he was seeking to continue the preliminary hearing in order to

have “an adequate opportunity to prepare for the prelim and/or explore
further settlement opportunities.” Pet. App. 96-100. Counsel said he had

received videotapes of interviews of the alleged victims “maybe a week ago, a

week and a half at best” and that “this case had never been continued before.”

Pet. App. 97-98. He said he had spent the last several hours advising Beltran
“regarding all of the possibilities and the offers that have been extended” but
sought a continuance of seven to eight days so that Beltran could discuss the

offer with his family. Pet. App. 99-100.
Deputy District Attorney Trudi White-Black objected to a continuance

and said she had two alleged victims present to testify at the preliminary
hearing. Pet. App. 102-103. She said that if Beltran “doesn’t want to take

the offer, that’s fine. We are ready to proceed to prelim, and we’ll just do it

that way.” Pet. App. 103.
Defense counsel replied that “my client has signed off on the plea

agreement, on the plea form, that was communicated based on the offer that
was given by the People this morning, and my client does wish to take that

particular deal. That was his indication to me, and I don’t believe that that
has changed at all, even in light of what I had mentioned to the court.” Id.

Counsel continued: “And so essentially what I would be indicating to the
5

court now, if the court is not inclined to provide any further continuances on

this matter, that my client did indicate to me that he does want to take -accept the offer that was extended by the People and would like to finish the
case today, Your Honor.” Pet. App. 103-104. Counsel gave copies of the plea

form to the judge and the district attorney. Pet. App. 104-105.
The following plea colloquy ensued:
The Court: Mr. Beltran, I have what appears to be a
pink waiver of rights form that seems to have initials
in the little boxes and what also appears to be a
signature back here on the back page. ffl] Is that
your initials and the signature on the form?

The Defendant: Yes.
The Court: And did you place the initials and
signature on the form?

The Defendant: Yes.
The Court: While you were doing that, did the
interpreter here read to you the paragraphs on each
of the pages with your constitutional rights and
consequences?
The Defendant: Yes.
The Court: While the interpreter was reading these
constitutional rights and consequences to you, did
you understand them?
The Defendant: Not all of it.
The Court: Good. [^] Call your first witness.
Ms. White-Black: Thank you, Your Honor.

6

The Court: All deals are off the table.
Mr. Virag: Your Honor --

The Court: No. Counsel, we’ve done what we’re
going to do.
Mr. Virag: I would ask, Your Honor, please, Your
Honor - Your Honor, I’ve been before Your Honor
many times, and I just need one moment. I’ve been
over this for two hours.

The Court: We cannot do that. I’ve just torn up the
waiver of rights form. I’m not going to take a guilty
plea from a not guilty man. Never. ffl] Call your
first witness, please.
Ms. White-Black: Thank you, Your Honor.
Pet. App. 106-107.
The prosecutor then called one of the alleged victims as a witness. Pet.

App. 107-108. Before the witness gave any substantive testimony, defense

counsel asked to address the court. Pet. App. 108. He said: “Before we go
any further, I had an opportunity to speak with my client just now, and he
had indicated to me that it is his desire to take the deal, and he does want to

doit.” Pet. App. 108-109.
The judge said, “I do have a problem, counsel.” Pet. App. 109.
Defense counsel replied: “[H]e indicated to me that it is his desire to

take the deal, and the only issue that he had a problem with was the

7

restitution and how he would pay any restitution that was due”; “he said that
he doesn’t have money to pay because he’s going to be incarcerated.” Id.
Counsel explained that he did not “want the court to misconstrue what

Mr. Beltran’s intentions are in this case.” Id. Beltran initialled all the boxes

in the plea form, signed the form, and “had only one question regarding
restitution. And if the court wishes to inquire regarding that, then that

would be fine.” Id.
Counsel continued: “I do want to indicate to the court that he’s not not

pleading to the deal. It’s just because he had a question with regard to

restitution, Your Honor. I don’t want this court to misconstrue his plan. He
wants the plead [sic], that’s what he had indicated to me.” Id. Beltran
confirmed on the record that was correct. Pet. App. 110.

The court responded: “He has looked extremely reluctant all the way

through this entire process. H] Motion to change plea at this point will be
denied. [^] Let’s finish the prelim, and he’ll have ample opportunity to plead

at some future time after he’s seen the evidence, should he wish to do so.” Id.

The preliminary hearing proceeded and Beltran was held to answer the

charges. 1 CT 101. On December 31, 2009, an information was filed
charging Beltran with 15 counts of lewd and lascivious acts and sexual
assault against two of his minor daughters under California Penal Code §§

269, 288 and 288.7. Id. at 104-115. Virag was relieved as defense counsel
8

and replaced by the Los Angeles County Deputy Public Defender Veronica

Verdugo. Id. at 117, 122. Beltran pleaded not guilty to all counts and denied
the special allegations. Id. at 122-123. Judge Mike Camacho was assigned to
the case and presided at trial. 2 RT Bl.2

II.

Trial
The parties gave their opening statements on August 13, 2010. Id. at

144-145. The prosecution presented testimony that Petitioner sexually

molested D.B. a number of times from the time she was 10 or 11 years old
until she was 16 and that he molested G.B. over a period of several months

when she was in the third grade. Pet. App. 51; 2 CT 278. D.B. and G.B.
testified, as did their mother, “R.L.,” their younger sisters “A.B.” and “N.B.,”

and several law enforcement officers. Pet. App. 50-51; 1 RT (master index to

reporter’s transcript).
R.L. testified that she and Beltran had been in a relationship for 20

years, had been married for nine years, and had five children together,
including the alleged victims. 2 RT 346-348. She was a stay-at-home mother

and Beltran worked and “always provided financial support” for the family.
Id. at 398. She and Beltran had a lot of fights and they separated twice - he

2 “RT” refers to the reporter’s transcript of trial. See docket 52,
lodgment 17.

9

left the home, the second time, in 2008, for about eight months. Id. at 403; 3

RT 619. During this separation, he continued to financially support the
family. 2 RT 368. R.L. asked him to return, and all of the children told her

they wanted him to return. Id. at 369.
R .L. testified that Beltran accused her of cheating on him, and she told

a police officer that the reason there were so many problems was because she
had been cheating on him. 3 RT 617-618. She testified that she once saw
Beltran “with a woman in his arms, inside [their] apartment.” Id. at 617.
Just before she contacted the police about the alleged sexual abuse, Beltran

told her he didn’t love her anymore and wanted a divorce. Id. at 629. She

never took the first step to get a divorce; it was always Beltran who said he
wanted a divorce. Id. at 630.

Beltran testified in his own defense and denied any wrongdoing. Pet.
App. 52; 5 RT 1293, 1304. Beltran said he never touched any of his children

in a sexual manner. 5 RT 1304. He explained that D.B. was unhappy with

him because he had looked at her “Myspace” page on her computer and
disapproved of her boyfriend, who looked like a gang member to him. Id. at

1295-1296. He and his wife had a lot of marital problems and he moved out

of the house several times. Id. at 1293-1296. He hit R.L. once, when he
discovered she had been unfaithful. Id. at 1303. He asked R.L. to take D.B.

10

to the doctor when D.B. was dizzy, nauseous, and possibly pregnant. Id. at

1299-1300. (R.L. confirmed this in her testimony. 3 RT 651.)
Four witnesses testified that Beltran’s relationships with the alleged

victims appeared normal and that R.L. accused Beltran of being unfaithful
and seemed jealous of and angry with him. See, e.g., 5 RT 1249-1250, 1252-

1253, 1259-1260, 1269, 1283-1285.

The prosecutor argued in closing that the testimony of D.B. and G.B.
was credible and that that Beltran was guilty on all counts. Id. at 1503-1505,

1519. Defense counsel argued that she could see Beltran’s wife “putting her

kids up to it because she’s so sick and tired of the situation, fed up with her
i

husband constantly threatening her to leave.” Id. at 1536. “What better way
to go after a man than to say you did something to my kids. What better way
to ruin a person when you’re so sick and tired and you love him but he doesn’t
love you. He’s repeatedly told you ... I don’t want to be here. What better

way to get even?” Id.

Jury deliberations began on Thursday, August 19, 2010 at 11:10 a.m. 2

CT 188. The jury deliberated on August 20, 23, 24 and most of August 25
until it reached a verdict at 2:00 p.m. on the 25th. Id. at 187-188, 194-196,

198-199, 203-208, 263-264. A jury note reported that Juror 10 had previously
been accused of rape and that some jurors thought he might be biased. Id. at

189. The juror had not disclosed this accusation in voir dire. Pet. App. 79.
11

As the Court of Appeal noted, “[t]he prosecutor urged the juror be removed
for bias” and the court did so, replacing him with an alternate. Pet. App. 79-

80.

During deliberations, the jury asked for a copy of the instructions,

readbacks of testimony, and other information. 2 CT 186, 190-193, 197, 201-

202, 247.
The jury convicted Beltran on all counts. Id. at 265-268; 6 RT 27142720; Pet. App. 75. Beltran was convicted of committing lewd acts upon G.B.,

a child under the age of 14 (Penal Code § 288(a)) (counts 1 and 2); sodomy of
G.B., a child under the age of 10 (Penal Code § 288.7(a)) (count 3); committing

a lewd act upon D.B., a child under the age of 14 (Penal Code § 288(a)) (count

4); continuous sexual abuse of D.B. (Penal Code § 288.5(a)) (count 5);

aggravated sexual assault (rape) of a child as to G.B. (Penal Code § 269(a)(1))
(count 6); and aggravated sexual assault (rape) of a child as to D.B. (Penal

Code § 269(a)(1)) (counts 7-15). Id. As to all counts, the jury found Petitioner
had committed offenses upon multiple victims (Penal Code § 667.61(b)). Id.

At the sentencing hearing on December 13, 2010, R.L. said that she and

her daughters had forgiven Beltran and she asked the court to have mercy on
him. 6 RT 3004-3005. She said that “[i]n spite of everything, he was a good
father to them.” Id. at 3005. Beltran’s daughter A.B. said that she forgave

him. Id. at 3006. Judge Camacho sentenced Beltran to 130 years to life in

state prison. Pet. App. 75; 2 CT 298; 6 RT 3010.
12

III.

State Appeal
Beltran argued in his supplemental brief on direct appeal that the trial

court’s arbitrary rejection of the plea bargain constituted an abuse of
discretion and a denial of his federal due process and his rights under state

law. Docket 15, lodgment 4 at 1. He cited the Fifth and Fourteenth
Amendments to the United States Constitution and four United States
Supreme Court cases in support of his due process argument. Id. at 5-6.

Respondent argued that Beltran’s claim lacked “merit because no agreement

was formed” and the court did not abuse its discretion in rejecting the deal.

Docket 15, lodgment 5 at 27 (emphasis deleted). Respondent did not argue
that the claim was procedurally barred. Id. at 27-33.

In a letter dated April 23, 2012, the California Court of Appeal noted

“ [i]t appears defendant did not file a motion under Penal Code section 995 to
challenge the magistrate’s refusal to go forward with a guilty plea. It further

appears that no discussions were held on the record regarding a plea after

defendant was held to answer at the preliminary hearing.” See Ninth Circuit
docket 22. The court directed the parties “to address, in letter form, whether
the failure to file a motion under Penal Code section 995 or request

enforcement of the agreement forfeits the issue raised in the supplemental
opening brief.” Id. The court added that “[t]he parties may also address

whether defendant suffered actual prejudice or was denied a fair trial as a
13

result of the magistrate’s actions under People v. Pompa-Ortiz.” Id?

California Penal Code § 995(a) states that “the indictment or information
shall be set aside by the court in which the defendant is arraigned, upon his

or her motion, in either of the following cases: ... (2) If it is an information:

(A) That before the filing thereof the defendant had not been legally
committed by a magistrate. (B) That the defendant had been committed
without reasonable or probable cause.”

Beltran argued that a “Penal Code section 995 motion lies to challenge

irregularities in the preliminary examination procedures, not to challenge
irregularities in plea procedures,” and that because a “challenge to a plea

proceeding is not the proper subject of Penal Code section 995 motion,” he did
not forfeit his claim by failing to file such a motion. Docket 15, lodgment 7 at

1 (emphasis deleted).
Beltran also argued that he “could not have requested enforcement of
the agreement because there was no enforceable agreement” -- a “plea

bargain is ineffective unless and until it is approved by the court.” Id. at 2-3
(emphasis deleted).
Finally, Beltran argued that “[t]he standard in Pompa-Ortiz is not the

correct standard by which to measure” prejudice from a court’s erroneous

3 People v. Pompa-Ortiz, 612 P.2d 941 (Cal. 1980).
14

rejection of a plea bargain. Id. at 3. Whereas Pompa-Ortiz essentially
requires a defendant to show that he received an unfair trial to prove

prejudice, when a defendant loses an opportunity to enter a plea, prejudice is
measured by the test in Lafler v. Cooper, 566 U.S. 156 (2012), and Missouri v.

Frye, 566 U.S. 134 (2012). Id. at 3-4. Beltran explained that these cases
“require [d] defendants to demonstrate a reasonable possibility that they
would have accepted the earlier plea offer and that, if the prosecution had the
discretion to cancel it or if the trial court had the discretion to refuse to

accept it, there is a reasonable probability that the prosecutor would have
adhered to the agreement and the court would have accepted it.” Id. at 4.

Beltran argued he met that test. Id. The remedy was “to reverse appellant’s
convictions, and allow appellant to enter into the plea bargain which the

court arbitrarily rejected as it was administering the advisements.” Id. at 5.
Respondent argued that Beltran’s claim “should be deemed forfeited.”

Docket 15, lodgment 8 at 2 (footnote omitted).
The Court of Appeal affirmed the judgment in an unpublished

memorandum opinion filed on June 13, 2012. Pet. App. 74-94.4 The court

denied Beltran’s plea deal claim on the ground that “[t]he trial court never

4 The court reduced a fine and amended the award of presentence
custody credits but otherwise affirmed the judgment. Pet. App. 75, 88-89, 93.
15

had an opportunity to rule on the propriety of the actions of the magistrate,
as defendant failed to make a motion to dismiss under section 995. Under,

these circumstances, the issue is forfeited for purposes of direct appeal.” Pet.

App. 92. The court quoted the holding in People v. Harris, 61 Cal.2d 866, 870
(Cal. 1967), ‘“that the failure to move to set aside the information (Pen. Code,

§ 995) bars the defense from questioning on appeal any irregularity in the
preliminary examination (Pen. Code, § 996).’” Id.; see also id. (quoting Harris
for the point that “‘section 996 forecloses an attack on the preliminary
examination in the absence of a motion under section 995’”).5

The court said that “ [i]n addition to the issue of forfeiture, defendant
cannot establish prejudice, as defined by our Supreme Court, from the
magistrate’s decision not to complete the plea.” Id. “Defendant suffered no

prejudice at trial from the magistrate’s decision to terminate the attempt at a
guilty plea.” Id. The court explained that “[w]e have determined that no
error, and certainly no prejudicial error, has been shown at trial. The record

of post-preliminary hearing proceedings contains no suggestion that

defendant expressed any desire to settle his case without a trial, or that he

had an actual interest in the earlier offer of 24 years.” Id. The court

6 Penal Code § 996 states that “[i]f the motion to set aside the
indictment or information is not made, the defendant is precluded from
afterwards taking the objections mentioned in Section 995.”
16

concluded that “[a]ssuming some irregularity occurred at the preliminary

hearing -- an issue we need not reach -- we are satisfied that defendant has

not shown the irregularity to be jurisdictional.” Id.
Beltran filed a petition for rehearing on June 29, 2012. Docket 15,

lodgment 10. He argued that the court’s opinion “established two new rules
of law: First, that a claim regarding an irregularity in a plea proceeding may

be raised in a section 995 motion, and second that such claim must be raised
in a section 995 motion or else it is forfeited.” Id. at 2. He argued that these
new rules “cannot be applied retroactively to appellant without violating due

process and fundamental fairness,” id. at 1 (emphasis and capitalization

deleted), and that “[it] is a violation of the state and federal constitution[s] to

apply to appellant the new rule of law created in his case.” Id. at 2. He
argued that the court should “deem appellant not to have forfeited this issue,
and address appellant’s claim of unconstitutional denial of a plea bargain by

the arbitrary action of the magistrate.” Id. at 5. He further argued that the

court “failed to apply the applicable standard for prejudice” enunciated in
Lafler and “instead applied a heretofore nonexistent standard which cannot,

consistent with due process, be applied to appellant.” Id.
The court denied rehearing thirteen days later, on July 12, 2012,
without a response being filed by the State. Docket 15, lodgment 11.

17

i

Beltran reasserted his plea bargain claim in his petition for review filed
in the California Supreme Court on July 26, 2012. Docket 15, lodgment 12.

Beltran argued that the magistrate’s arbitrary rejection of the plea bargain
violated his federal due process rights and his state rights, and he cited five

United States Supreme Court opinions in support of his position. Id. at 7-12.
Beltran complained that “the Court of Appeal did not address the
magistrate’s arbitrary exercise of authority, but dismissed appellant’s claim

on novel procedural grounds” that could not be applied against him
consistent with due process. Id. at 3, 13. He argued that the Court of

Appeal’s “novel standard for assessing prejudice” was contrary to Lafler. Id.
at 18-19. The court summarily denied review on September 19, 2012. ER 29.

Beltran did not file a petition for a writ of certiorari or a state habeas corpus

petition. Docket 1 at ECF pages 3, 7.6

IV.

Federal Habeas
On March 7, 2013, Beltran timely filed a federal habeas petition

alleging his plea bargain claim. Id. at ECF pages 5, 11-23. In his answer,
Respondent contended that the claim was procedurally defaulted. Docket 14

6 “ECF pages” refers to the page numbers created at the top of filed
documents by the district court’s electronic filing system.

18

at ECF pages 7, 12-20. Respondent also argued that the claim failed on the

merits. Id. at 20. Respondent conceded that “[b]ecause the California Court

of Appeal did not reach the issue of whether the magistrate had erred . . .
federal habeas review of this issue is de novo. See Cone v. Bell, 556 U.S. 449,

472, 129 S. Ct. 1769, 173 L. Ed. 2d 701 (2009).” Id. at 20 n.8.

On August 8, 2014, Beltran filed an amended federal petition
reasserting his plea bargain claim and adding four other claims that had

been exhausted on state direct appeal. Docket 20 at ECF pages 5-6. In his
answer to the first amended petition, Respondent repeated his response to
the plea bargain claim from his prior answer, including that the state court

had not adjudicated the issue of whether the magistrate judge violated
Beltran’s due process rights by rejecting the plea bargain. Docket 51 at ECF

pages 18-30; see especially page 26 n.9.

On August 22, 2017, Magistrate Judge Louise A. La Mothe issued a

report and recommendation that dispatched with Beltran’s due process claim
in six sentences. Pet. App. 57-58. Magistrate Judge La Mothe ruled that:

The United States Supreme Court has never
held that a state court must accept a guilty plea. To
the contrary, the Supreme Court has said that a
defendant does not have the right to have a plea
bargain accepted [quoting Santobello v. New York,
404 U.S. 257, 261-262 (1971), and North Carolina v.
Alford, 400 U.S. 25, 38 n.ll (1970), in a footnote].
This Court is sympathetic to Petitioner’s criticism of
the preliminary hearing judge’s abrupt rejection of
19

the plea agreement. However, in the absence of
clearly established federal law supporting
Petitioner’s claim, he is not entitled to habeas relief.
[Footnote omitted.]
Accordingly, this Court finds that the
California courts’ denial of Petitioner’s claim was
neither contrary to, not involved an unreasonable
application of, clearly established federal law as
determined by the United States Supreme Court.
Habeas relief is not warranted on Claim One.

Id. Thus, despite Respondent’s statement that the state court had not
adjudicated the merits of Beltran’s due process claim, and the record
confirming that analysis, the magistrate judge ruled that 28 U.S.C. § 2254(d)

applied and barred relief. The magistrate judge did not find the claim
procedurally defaulted.

On March 6, 2018, District Judge Josephine L. Staton accepted the

recommendation and entered judgment against Beltran with prejudice. Pet.
App. 45-47. She also denied a COA. Docket 86. Beltran timely appealed.

On September 25, 2018, the Ninth Circuit granted a COA on the issue
“whether appellant was deprived of due process when the trial court refused

to accept appellant’s plea, including whether this claim is procedurally
defaulted.” Pet. App. 43. On August 25, 2020, the Ninth Circuit affirmed the
judgment against Beltran, ruling that “[b]ecause there is no constitutional

right to having one’s plea agreement accepted, Petitioner has failed to

present a constitutional issue cognizable for habeas review.” Pet. App. 42.
20

REASONS FOR GRANTING THE WRIT
I.

AEDPA Standards
Beltran filed his federal habeas petition after AEDPA’s effective date;

therefore, his petition is governed by AEDPA. Woodford v. Garceau, 538 U.S.

202, 205, 210 (2003). To obtain relief under AEDPA, a petitioner must show
that his constitutional rights were violated under 28 U.S.C. § 2254(a) and

that § 2254(d) does not bar relief on any claim adjudicated on the merits in

state court. Frantz v. Hazey, 533 F.3d 724, 735-737 (9th Cir. 2008) (en banc).
Under § 2254(d), a habeas petition challenging a state court judgment:

shall not be granted with respect to any claim that
was adjudicated on the merits in State court
proceedings unless the adjudication of the claim-(l)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted
in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.
The relevant state court decision for purposes of federal review is the

last reasoned decision that resolves the claim at issue. Wilson v. Sellers, 138

S. Ct. 1188, 1192 (2018).

When a federal court concludes that the state court decision is contrary
to or an unreasonable application of federal law, or is based on an

unreasonable factual determination, it reviews the claim de novo in assessing
whether the petitioner’s constitutional rights were violated. Panetti v.
21

Quarterman, 551 U.S. 930, 953-954 (2007); Frantz, 533 F.3d at 735; Maxwell

v. Roe, 628 F.3d 486, 506 (9th Cir. 2010).

11.

The State Court Did Not Adjudicate the Merits of Beltran’s
Due Process Claim, and Therefore It Is Reviewed De Novo
As Respondent acknowledged in district court, the California Court of

Appeal did not adjudicate the merits of Beltran’s claim that the trial court’s

rejection of the plea bargain violated due process, but instead denied the

claim as procedurally barred, and therefore federal habeas review of the
claim is de novo. Cone, 556 U.S. at 460, 467, 472 (state court denial of claim

on ground of waiver is not an adjudication on merits; reviewing claim de novo
in habeas case governed by AEDPA). The magistrate judge wrongly applied §

2254(d) to the claim, wrongly held that it precluded relief, and never reached
the merits of Beltran’s due process claim. Woods v. Donald, 135 S. Ct. 1372,
1378 (2015) (per curiam) (when federal habeas court concludes § 2254(d) bars
relief, it expresses no view on merits of underlying constitutional claim).

111. The Trial Court Violated Beltran’s Due Process Rights by
Arbitrarily Rejecting the Plea Agreement
Section 1 of the Fourteenth Amendment provides that “No State shall.

. . deprive any person of life, liberty, or property, without due process of law.”

The due process clause protects liberty interests that “arise from the
Constitution itself, by reason of guarantees implicit in the word ‘liberty,’” or
“from an expectation or interested created by state laws or policies.”
22

Wilkinson v. Austin, 545 U.S. 209, 221 (2005). “The Due Process Clause . . .
confers both substantive and procedural rights.” Albright v. Oliver, 510 U.S.

266, 272 (1994). It requires governments to follow fair procedures before
depriving any person of life, liberty, or property. Mathews v. Eldridge, 424

U.S. 319, 332-333 (1976). It also “contains a substantive component that bars
certain arbitrary, wrongful government actions regardless of the fairness of
the procedures used to implement them.” Foucha v. Louisiana, 504 U.S. 71,
80 (1992) (quotation marks omitted).

“The touchstone of due process is protection of the individual against
arbitrary action of government.” Wolff v. McDonnell, 418 U.S. 539, 558
(1974). “The Due Process Clause entitles a person to an impartial and

disinterested tribunal in both civil and criminal cases.” Marshall v. Jerrico,

Inc., 446 U.S. 238, 242 (1980). “This requirement of neutrality in

adjudicative proceedings . . . preserves both the appearance and reality of

fairness.” Id.; People v. Ramirez, 599 P.2d 622, 627 (Cal. 1979) (“freedom
from arbitrary adjudicative procedures is a substantive element of one’s
liberty”); People v. Segura, 188 P.3d 649, 655 (Cal. 2008) (trial judges must

“remain detached and neutral in evaluating the voluntariness of the plea and
the fairness of the bargain to society as well as the defendant”); see also

Williams v. Pennsylvania, 136 S. Ct. 1899, 1903 (2016) (due process requires
recusal of judge “when the likelihood of bias on the part of the judge is too

23

high to be constitutionally tolerable”) (quotation marks omitted); Rippo v.
Baker, 137 S. Ct. 905, 907 (2017) (per curiam) (same).
This Court and the California Supreme Courts have emphasized that

“criminal justice today is for the most part a system of pleas, not a system of
trials. Ninety-seven percent of federal convictions and ninety-four percent of
state convictions are the result of guilty pleas.” Lafler, 566 U.S. at 170;
Segura, 188 P.3d at 654-655 (citing similar figures). Thus, plea bargaining

“‘is not some adjunct to the criminal justice system; it is the criminal justice
system.’” Frye, 566 U.S. at 144 (original emphasis). “Plea agreements benefit

that system by promoting speed, economy, and the finality of judgments.”
Segura, 188 P.3d at 654. “The potential to conserve valuable prosecutorial

resources and for defendants to admit their crimes and receive more
favorable terms at sentencing means that a plea agreement can benefit both

parties.” Frye, 566 U.S. at 144.
A plea agreement requires judicial approval to take effect. Segura, 188

P.3d at 655. Although a defendant does not have an “absolute right to have a
guilty plea accepted,” and courts have discretion to reject a plea, Santobello,

404 U.S. at 262, due process requires that courts not “reject pleas on an

arbitrary basis.” United States v. Moore, 916 F.2d 1131, 1136 (6th Cir. 1990).
As the Sixth Circuit explained in Moore, “[b]y leaving the decision whether to
accept or reject a plea to the ‘exercise of sound judicial discretion,’ Santobello,

24

404 U.S. at 262, 92 S. Ct. at 498, the Supreme Court did not intend to allow

district courts to reject pleas on an arbitrary basis. The authority to exercise
judicial discretion implies the responsibility to consider all relevant factors
and rationally construct a decision.” 916 F.2d at 1136; see also People v.

Smith, 22 Cal. App. 3d 25, 30 (1971) (“Although it is within the discretion of
the court to approve or reject the proffered offer, the court may not arbitrarily

refuse to consider the offer.”); In re Alvernez, 830 P.2d 747, 758 (Cal. 1992) (“a
trial court’s approval of a proposed plea bargain must represent an informed
decision in furtherance of the interests of society”; “the trial court may not

arbitrarily abdicate that responsibility”); United States v. Miller, 122 F.2d
562, 565 (9th Cir. 1983) (“the existence of discretion requires its exercise”).

Caselaw cautions that “courts should be wary of second-guessing

prosecutorial choices” to make a plea agreement. Id.', Segura, 188 P.3d at 655
(‘“The court has no authority to substitute itself as the representative of the

People in the negotiation process and under the guise of “plea bargaining” to

“agree” to a disposition of the case over prosecutorial objection.’”). “Courts do
not know which charges are bested initiated at which time”; “which allocation

of prosecutorial resources is most efficient”; “or the relative strengths of
various cases and charges.” Miller, 122 F.2d at 565.

“Habeas corpus relief for an asserted violation of due process is

25

available . . . when the state court’s action is arbitrary or fundamentally
unfair.” Cooks v. Spalding, 660 F.2d 738, 739 (9th Cir. 1981). The court’s

conduct here -- abruptly rejecting the plea agreement, tearing up the plea
waiver form, and failing to re-open the colloquy when Beltran reaffirmed he

wanted to plead - was arbitrary, fundamentally unfair, reflected a lack of

“neutrality in adjudicative proceedings,” and violated Beltran’s substantive

and procedural due process rights. The Ninth Circuit’s conclusion that
Belton “has failed to assert a federal constitutional violation” (Pet. App. 41) is

flatly wrong in light of these authorities.
The trial court essentially punished Beltran for not understanding the

interpreter’s translation of the waiver form by depriving him of the

opportunity to enter the plea. Although the court purported to reject the plea
on the ground that it would not “take a plea from a not guilty man,” Beltran
did not claim or intimate he was not guilty. He merely responded honestly to
the court’s question whether he understood what the interpreter read to him

by saying that he did not understand everything she read. Beltran’s inability

to understand the interpreter’s entire translation was not a rational reason to
reject the plea. The court’s rejection of the plea for that reason, or because
Beltran’s statement that he did understand the entire translation was

tantamount to claiming he was not guilty and was unwilling to plead, was
arbitrary and capricious. Indeed, this Court has held that “an express

26

admission of guilt” “is not a constitutional requisite” for the entry of a guilty

plea. North Carolina v. Alford, 400 U.S. 25, 37 (1970); id. at 38 (stating in

habeas case that “[i]n view of the strong factual basis for the plea
demonstrated by the State and Alford’s clearly expressed desire to enter it

despite his professed belief in his innocence, we hold that the trial judge did

not commit constitutional error in accepting it”) (footnote omitted).
Moreover, after the court declared that the offer was “off the table” and
told the prosecutor to present her first witness, defense counsel explained

that Beltran’s only question was with regard to restitution, because he didn’t
know how he could pay restitution from prison. Counsel said he didn’t “want

this court to misconstrue his plan. He wants to plead, that’s what he had
indicated to me.” Beltran confirmed on the record that was correct. The
court failed to re-open the colloquy and inquire further but instead told the

prosecutor to continue with her first witness. The court violated Beltran’s
due process rights by not re-opening and conducting a proper plea colloquy.

See Henderson v. Morgan, 426 U.S. 637, 647 (1976) (affirming habeas relief
based on inadequate plea colloquy; because petitioner “did not receive

adequate notice of the offense to which he pleaded guilty, his plea was
involuntary and the judgment of conviction was entered without due process
of law”).

27

The court also said that Beltran “has looked extremely reluctant all the
way through this entire process.” That rationale provides no reasonable
basis to reject the plea, because it is refuted by Beltran’s repeated on-the-

record statements that he wanted to take the plea, his counsel’s repeated
confirmations of that desire, and the fact that Beltran filled out and
submitted the plea waiver form. The court violated Beltran’s due process

rights by rejecting the plea. See, e.g., United States v. Maddox, 48 F.3d 555,

560 (D.C. Cir. 1995) (remanding because of district court’s arbitrary
summary rejection of renewed plea offer; “where, as here, a defendant offers a
timely and reasonable explanation for actions that prompted a district court

to reject a guilty plea, the court must at least exercise its discretion to

ascertain whether its earlier concerns have been addressed”); Miller, 122

F.2d 563 (reversing and remanding; “by categorically rejecting all one-count
pleas to multiple count indictments, the district court has abdicated its duty

to exercise discretion by considering every case individually”); In re Morgan,
506 F.3d 705, 712 (9th Cir. 2007) (similar); Smith, 22 Cal. App. 3d at 29, 33
(granting relief on defendant’s claim “that the court’s refusal to consider his
conditional plea was an abuse of discretion and a denial of a substantial right
in violation of due process”).

In sum, the trial court’s abrupt and arbitrary rejhection of the plea deal
violated Beltran’s right to due process, and the Ninth Circuit’s holding that

28

Beltran fails to even state a cognizable claim in habeas is contrary to law and

requires this Court’s intervention given the importance of plea bargaining in
the criminal justice system.

IV.

Beltran Was Prejudiced by the Due Process Violation
The California Court of Appeal denied Beltran’s claim for lack of

prejudice, and therefore § 2254(d) applies to this part of the claim.

When a state court denies a federal claim subject to harmless error
review for lack of prejudice, typically “‘a federal court may not award habeas

reliefunder § 2254(d) unless the harmlessness determination itself was
unreasonable.’” Ayala, 135 S. Ct. at 2199 (original emphasis). However, “if

‘the state court’s harmless error holding is contrary to Supreme Court

precedent or objectively unreasonable, then no deference is owed” under §

2254(d). Cudjo, 698 F.3d at 768. A “‘state court’s harmless error holding is
“contrary” to precedent if it fails to apply the correct controlling authority.’”
Id. In that situation, federal habeas courts “revert to the independent

harmless error analysis that [they] would apply had there been no state court
holding.’” Id. at 768.
Here, the California Court of Appeal ruled that Beltran “cannot

establish prejudice, as defined by our Supreme Court, from the magistrate’s
decision not to complete the plea.” ER 49. The court explained that Beltran

“suffered no prejudice at trial from the magistrate’s decision to terminate the
29

attempt at a guilty plea. We have determined that no error, and certainly no
prejudicial error, has been shown at trial.” Id.
As Beltran showed in his state appeal briefs, however, this is the wrong

prejudice standard for his claim. The prejudice caused by a court’s erroneous
denial of a plea agreement should be measured by the standards set forth by
the United States Supreme Court in Lafler and Frye that apply when defense

counsel’s ineffectiveness deprives the defendant of the opportunity to enter a
plea. In Lafler, the Court rejected the prejudice standard suggested by the
government that a defendant is not prejudiced if he or she later receives a

fair trial, 566 U.S. at 164-170, the standard applied by the Court of Appeal

here. The Court explained “here the question is not the fairness or reliability

of the trial but the fairness and regularity of the processes that preceded it,

which caused the defendant to lose benefits he would have received in the

ordinary course” but for the constitutional error. Id. at 169. The Court
quoted Frye for the point that it “‘is insufficient simply to point to the

guarantee of a fair trial as a backstop that inoculates any errors in the

pretrial process.’” Id. at 170. “Far from curing the error, the trial caused the
injury from the error. Even if the trial itself is free from constitutional flaw,
the defendant who goes to trial instead of taking a more favorable plea may

be prejudiced from either a conviction on more serious counts or the

imposition of a more severe sentence.” Id. at 166.
30

Instead, prejudice from the unconstitutional denial of an opportunity to
accept a plea bargain “can be shown if loss of the plea opportunity led to a

trial resulting in a conviction on more serious charges or the imposition of a

more severe sentence.” Id. at 168. The Court explained that “[i]n the context
of pleas a defendant must show the outcome of the plea process would have

been different” absent the constitutional error. Id. at 163.
In these circumstances a defendant must show that
but for the ineffective advice of counsel there is a
reasonable probability that the plea offer would have
been presented to the court (i.e., that the defendant
would have accepted the plea and the prosecution
would not have withdrawn it in light of intervening
circumstances), that the court would have accepted
its terms, and that the conviction or sentence, or
both, under the offer’s terms would have been less
severe than under the judgment and sentence that in
fact were imposed.

Id. at 164.

There is no reason the prejudice test should be different when the
defendant loses a favorable plea opportunity because the trial judge violated

his constitutional rights rather than his lawyer. In both instances, a
constitutional violation in the pretrial process deprived the defendant of a

favorable plea bargain. “AEDPA does not ‘require state and federal courts to
wait for some nearly identical factual pattern before a legal rule must be

applied,’” Pernetti, 551 U.S. at 953, and a “federal court may grant relief

when a state court has misapplied a ‘governing legal principle’ to ‘a set of
31

facts different from those of the case in which the principle was announced.’”

Wiggins, 539 U.S. at 520.

Lafler and Frye show that the California Court of Appeal’s test for

prejudice -- requiring the showing of prejudicial constitutional error at the
ensuing trial -- is not the correct test in this situation. Because the state

court applied a prejudice standard that is contrary to federal law, § 2254(d) is

satisfied and the question of prejudice is reviewed de novo. Cudjo, 698 F.3d
at 768 (reviewing question of prejudice de novo because “the California
Supreme Court did not apply the Chapman1 harmless error analysis required
for constitutional violations”).

Beltran satisfies the Lafler test. First, Beltran would have accepted -indeed, he did accept on the record in court -- the offer of 24 years. He also

initialed and signed the plea form, and his lawyer urged the court to accept
the plea.

Second, the record shows that the prosecutor had accepted the plea.
Third, Judge Marrs initially accepted the terms of the plea and balked

only after engaging in the plea colloquy, in violation of Beltran’s due process
rights. A constitutionally-compliant court would accept the terms of the plea
bargain.

7 Chapman v. California, 386 U.S. 18 (1967).

32

Fourth, the sentence under the terms of the offer -- 24 years -- was

much less severe than the sentence imposed -- 130 years to life. This
disparity dwarfs the three and a half time increase in sentence in Lafler. Id.
at 174; see also United States v. Delegal, 678 F.2d 47, 52 (7th Cir. 1982)

(prejudice from court’s wrongful withdrawal of plea agreement shown where

defendant “was eventually convicted on two counts, while he had pleaded to
only one”).

If the Court applies Brecht, prejudice is shown for the same reasons.
Given the more than five to one disparity between the sentence imposed and
the sentence offered, the Court should at least have “grave doubt about

whether a trial error of federal law had substantial and injurious effect or
influence in determining the jury’s verdict.” Ayala, 135 S. Ct. at 2198

(quotation marks omitted). The State has not met its burden of proving
harmlessness. Id. at 2197.

The proper remedy here is as in Lafler. There the Court explained that
“a remedy must ‘neutralize the taint’ of a constitutional violation.” 566 U.S.
at 170. Lafler held that the correct remedy upon a showing of deficient
performance and prejudice in the guilty plea process was “to order the State

to reoffer the plea agreement.” 566 U.S. at 174. Here, the State should be
ordered to reoffer the plea deal for a 24-year sentence.

33

V.

Beltran’s Claim Is Not Procedurally Defaulted
In Beltran’s state appeal, Respondent did not argue that his plea

bargain claim had been forfeited until the Court of Appeal raised the issue in
its order for letter briefs. And although the Court of Appeal ruled that the

claim was forfeited, the district court did not find the claim procedurally
defaulted, but instead denied the claim on the ground that § 2254(d) barred

relief. The Ninth Circuit did not reach the question of procedural default but
instead denied relief for failure to state a claim. As shown below, Beltran’s

claim is not procedurally defaulted and the Court can and should reach the

merits of his claim.
Procedural default is an affirmative defense. Gray v. Netherland, 518

U.S. 152, 165 (1996). “[T]he state must plead, and it follows, prove the

default.” Bennett v. Mueller, 322 F.3d 573, 585 (9th Cir. 2003). Thus, the
State carries the burden of establishing the adequacy and independence of
the state procedural bar, here, the ruling by the Court of Appeal that Beltran

had to move to dismiss the information under Penal Code § 995 in order to
preserve a challenge to the court’s rejection of the plea agreement. ER 49.

The State cannot meet that burden.
“‘A state procedural rule constitutes an adequate bar to federal court

review if it was “firmly established and regularly followed” at the time it was

applied by the state court.’” Bennett, 322 F.3d at 583. As Beltran showed in
34

his state appeal, by its express terms and the published cases interpreting it,
Penal Code § 995 is reserved for challenges to irregularities in preliminary

examination procedures. Pompa-Ortiz, 612 P.2d at 947. A plea proceeding is

not a preliminary examination procedure but a manner of resolving a case
that may be undertaken at any time prior to sentencing. People v. West, 477

P.2d 409, 412-417 (Cal. 1970). Because the plea bargain process is not a part

of or tied to the preliminary hearing, it is not the proper subject of a 995
motion, and a defendant need not file a 995 motion to preserve his right to
challenge a court’s rejection of a plea bargain. Indeed, Beltran noted in his

petition for review that “there are no cases in which a section 995 motion was

brought to challenge the court’s rejection of a plea or any other aspect of a
plea proceeding, or in which the Court of Appeal rejected such a challenge on
the ground that no section 995 motion had been brought.” ER 113. The rules

that a claim regarding an irregularity in a plea proceeding (1) may be raised
in a § 995 motion and (2) must be raised in a § 995 motion or else it is

forfeited were created by the Court of Appeal in Beltran’s own case. ER 165.

The two cases cited by the Court of Appeal in its forfeiture analysis do
not support its conclusion. In Harris, the question was “whether failure to

provide counsel at the preliminary examination requires reversal of the
ensuing judgment of conviction when the defendant did not move under
section 995 of the Penal Code to set aside the information.” 434 P.2 at 610.

35

In Pendergrass, the question was whether the defendant forfeited his right to
challenge the denial of a motion made at a preliminary hearing to disclose

the identity of a confidential informant by not later making a 995 motion.

226 Cal. Rptr. at 853. Neither case involves a challenge to the plea
bargaining process, and neither put Beltran on notice to file a 995 motion or
else risk forfeiting his claim.

Far from being “firmly established and regularly followed” by the time

of Beltran’s alleged default, the procedural bar here was imposed for the first
time on appeal in Beltran’s own case. “Novelty in procedural requirements
cannot be permitted to thwart review in this Court applied for by those who,
in justified reliance on prior decisions, seek vindication in state courts of their

federal constitutional rights.” N.A.A.C.P. v. Alabama, 357 U.S. 449, 447-448

(1958); see also People v. Welch, 851 P.2d 802, 808-809 (Cal. 1993)
(“[Defendant should not be penalized for failing to object where existing law
overwhelmingly said no such objection was required. It would be unfair to
effectively bar any review of defendant’s claims where the rule requiring

their preservation in the trial court was adopted in the context of her own
appeal.”); People v. Stanfill, IQ Cal. App. 4th 1137, 1151 (1999) (similar).

In sum, the procedural bar imposed by the California Court of Appeal is

inconsistent with existing state law at the time of the alleged default, was
erroneously and arbitrarily applied to Beltran, and does not preclude federal

36

merits review. Sivak v. Hardison, 658 F.3d 898, 907 (9th Cir. 2011) (“Here,
the state court applied the state’s procedural rule to Sivak’s case in an
erroneous and arbitrary fashion. Thus, we follow the Supreme Court and our

sister circuits in holding that an erroneously applied procedural rule does not

bar federal habeas review.”) (footnote omitted); id. at 907 n.l (collecting

cases); Reynolds v. Ellingsworth, 843 F.2d 712, 719 (3rd Cir. 1988) (state bar

inadequate where invocation of bar “is not consistent with other state
authority”). Respondent has not met his burden of proving that the forfeiture

rule is adequate to preclude federal review on the facts of this case. Scott v.
Schriro, 567 F.3d 573, 581-582 (9th Cir. 2009).

CONCLUSION
For the foregoing reasons, the Court should grant Beltran’s petition,
reverse the judgment of the Ninth Circuit, and grant relief.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: January 15, 2021

By

MARK R. DROZUtlWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

37

